Washington, D.C. 20530

October 12, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Matthew Nix v. United States of America,
S.Ct. No. 21-447
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 15,
2021, and placed on the docket on August 22, 2021. The government’s response is due on
October 22, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time to and
including November 22, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which was
delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.
Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0447
NIX, MATTHEW
USA

JOSEPH D. NOHAVICKA
PARDALIS & NOHAVICKA, LLP
3510 BROADWAY
SUITE 201
ASTORIA, NY 11106
646-319-9764
JDN@PNLAWYERS.COM

